Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 MEDICARE COMPLIANCE REVIEW
        OF RAPID CITY
      REGIONAL HOSPITAL
     FOR CALENDAR YEARS
        2010 AND 2011



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        May 2013
                                                      A-07-12-05033
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, intended to be
payment in full to the hospital for inpatient costs associated with the beneficiary’s stay.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. This review is part of a series of OIG reviews of Medicare payments to hospitals for
selected claims for outpatient and inpatient services.

Rapid City Regional Hospital (the Hospital) has 368 beds and is located in Rapid City, South
Dakota. Medicare paid the Hospital approximately $161 million for 43,714 outpatient and
10,659 inpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2010 and 2011 based on CMS’s National Claims History data.

Our audit covered $6,335,984 in Medicare payments to the Hospital for 132 outpatient and 119
inpatient claims that we identified as potentially at risk for billing errors for CYs 2010 and 2011.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.




                                                  i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 177 of the 251 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 74 claims, resulting in overpayments totaling $256,789 for
CYs 2010 and 2011. Specifically, 66 outpatient claims had billing errors, resulting in
overpayments totaling $187,984, and 8 inpatient claims had billing errors, resulting in
overpayments totaling $68,805. Overpayments occurred primarily because the Hospital’s
computerized pharmacy and charge systems were not programmed correctly for a drug.
Overpayments also occurred because of human error and because the Hospital did not have
adequate controls related to reporting manufacturer credits for replaced medical devices.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $256,789, consisting of $187,984 in overpayments for
       the 66 incorrectly billed outpatient claims and $68,805 in overpayments for the 8
       incorrectly billed inpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations and stated that it had taken steps to strengthen controls to ensure full
compliance with Medicare billing requirements.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Outpatient Prospective Payment System ........................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Claims at Risk for Incorrect Billing ................................................................1
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Rapid City Regional Hospital ........................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
          Incorrect Healthcare Common Procedure Coding System Code ...................................5
          Incorrect Revenue Center Code .....................................................................................5
          Manufacturer Credits for Replaced Medical Devices Not Reported .............................6
          Incorrect Number of Units for Doxorubicin Hydrochloride ..........................................6
          Incorrectly Billed Evaluation and Management Service ...............................................7

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................7
          Incorrect Diagnosis-Related Group Codes ....................................................................7
          Manufacturer Credits for Replaced Medical Devices Not Reported .............................7
          Lack of Physician Orders ...............................................................................................8

      RECOMMENDATIONS ......................................................................................................8

      AUDITEE COMMENTS ......................................................................................................8

APPENDIXES

      A: RESULTS OF REVIEW BY RISK AREA

      B: HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with permanent kidney disease. The Centers for Medicare and Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP [State Children’s Health Insurance Program] Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 1 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 2 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Claims at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
hospital claims that are at risk for noncompliance with Medicare billing requirements. OIG
identified these types of hospital claims using computer matching, data mining, and analysis
techniques. Examples of the types of claims at risk for noncompliance included the following:

1
    In 2009, SCHIP was formally redesignated as the Children’s Health Insurance Program.
2
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                         1
    •   outpatient claims billed for Lupron injections,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient claims billed with Doxorubicin Hydrochloride,

    •   outpatient claims billed with evaluation and management (E&M) services,

    •   outpatient claims billed with modifiers,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient claims paid in excess of charges,

    •   inpatient short stays,

    •   inpatient claims with payments greater than $150,000, and

    •   inpatient hospital-acquired conditions and present on admission indicator reporting.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for outpatient and inpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” In addition, section 1833(e)
of the Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 3, section 10, of the Manual states that the
hospital may bill only for services provided. In addition, chapter 23, section 20.3, of the Manual
states that providers must use HCPCS codes for most outpatient services.




                                                   2
Rapid City Regional Hospital

Rapid City Regional Hospital (the Hospital) has 368 beds and is located in Rapid City, South
Dakota. Medicare paid the Hospital approximately $161 million for 43,714 outpatient and
10,659 inpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2010 and 2011 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing outpatient and inpatient services on selected claims.

Scope

Our audit covered $6,335,984 in Medicare payments to the Hospital for 132 outpatient and
119 inpatient claims that we identified as potentially at risk for billing errors for CYs 2010 and
2011.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
did not include a focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the outpatient and
inpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from July to October 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s outpatient and inpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;




                                                 3
   •   obtained information on known credits for replaced medical devices from the device
       manufacturers for CYs 2010 and 2011;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 251 claims (132 outpatient and 119 inpatient) for
       detailed review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   discussed the incorrectly billed and/or coded claims with Hospital personnel to determine
       the underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   shared the results of our review with Hospital officials on October 23, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 177 of the 251 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 74 claims, resulting in overpayments totaling $256,789 for
CYs 2010 and 2011. Specifically, 66 outpatient claims had billing errors, resulting in
overpayments totaling $187,984, and 8 inpatient claims had billing errors, resulting in
overpayments totaling $68,805; see Appendix A. Overpayments occurred primarily because the
Hospital’s computerized pharmacy and charge systems were not programmed correctly for a
drug. Overpayments also occurred because of human error and because the Hospital did not
have adequate controls related to reporting manufacturer credits for replaced medical devices.




                                                4
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 66 of the 132 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $187,984.

Incorrect Healthcare Common Procedure Coding System Code

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” The Manual, chapter 17, section 90.2.A, states:
“It is … of great importance that hospitals billing for [drugs] make certain that the reported units
of service of the reported HCPCS code are consistent with the quantity of a drug … that was
used in the care of the patient.” If the provider is billing for a drug, according to chapter 17,
section 70, of the Manual, “[w]here HCPCS is required, units are entered in multiples of the
units shown in the HCPCS narrative description. For example, if the description for the code is
50 mg, and 200 mg are provided, units are shown as 4 ….”

The Food and Drug Administration (FDA) identifies and reports drug products with a universally
used unique, three-segment number called the national drug code (NDC). Each quarter, CMS
provides Medicare contractors with an updated listing that cross-references the NDC to the drug
name, billing units, and HCPCS code.

Lupron is a drug commonly used to treat hormone-dependent cancers. The FDA approved
Lupron for the treatment of disorders relating to the uterus and for the treatment of prostatic
cancer. According to the NDCs in effect during our audit period, Lupron was available for the
treatment of: (1) disorders relating to the uterus, in doses of 3.75 mg once a month or 11.25 mg
once every 3 months, and was linked to HCPCS code J1950; and (2) prostatic cancer, in doses of
7.5 mg once a month, 22.5 mg once every 3 months, or 30 mg once every 4 months, and was
linked to HCPCS code J9217.

For 61 out of 132 sampled claims, the Hospital incorrectly submitted claims using the HCPCS
code J1950 instead of the correct HCPCS code (J9217) and billed with either 8 or 6 service units
when the correct amount should have been 4 or 3, respectively. The Hospital stated that these
errors occurred because the incorrect HCPCS code was in the pharmacy dictionary and the
chargemaster. 3 As a result of these errors, the Hospital received overpayments totaling
$161,740.

Incorrect Revenue Center Code

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately….”

For 1 out of 132 sampled claims, the Hospital submitted the claim with an incorrect revenue
center code 636 (which denotes the administration or prescription of one or more drugs requiring
3
    A hospital’s chargemaster contains data on every chargeable item or procedure that the hospital offers.


                                                            5
detailed coding) when revenue center 250 (“pharmacy general”) should have been used on the
claim. Because the claim included the incorrect revenue center code, Medicare made an
unallowable separate payment for a medication. The Hospital attributed this issue to an isolated
incident caused by a manual clerical error. As a result of this error, the Hospital received an
overpayment of $19,988.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.

For 2 out of 132 sampled claims, the Hospital received a full credit for a replaced medical device
but did not report the “FB” modifier and reduced charges on its claims. These overpayments
occurred because the Hospital did not have adequate controls to report the appropriate modifier
and reduced charges to accurately reflect credits it had received from manufacturers. As a result
of these errors, the Hospital received overpayments totaling $5,816.

Incorrect Number of Units for Doxorubicin Hydrochloride

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that
hospitals billing for [drugs] make certain that the reported units of service of the reported
HCPCS code are consistent with the quantity of a drug … that was used in the care of the
patient.” If the provider is billing for a drug, according to chapter 17, section 70, of the Manual,
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

For 1 out of 132 sampled claims, the Hospital incorrectly submitted a claim to Medicare with an
incorrect number of units for Doxorubicin Hydrochloride. 4 For this claim, rather than billing
seven units of Doxorubicin Hydrochloride, the Hospital billed eight units.

The Hospital attributed this issue to an isolated clerical error. As a result of this error, the
Hospital received an overpayment of $383.
4
    This drug is used in the chemotherapy treatment of a wide range of cancers.


                                                           6
Incorrectly Billed Evaluation and Management Service

The Manual, chapter 12, section 30.6.6(B), states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure.

For 1 out of 132 sampled claims, the Hospital incorrectly billed Medicare for an E&M service (a
dressing change) that was not above and beyond the usual postoperative work associated with the
procedure. The dressing change was a routine postoperative service and required minimal
intervention from nursing staff. The Hospital attributed this issue to an error in coding this
service on the part of nursing staff. As a result of this error, the Hospital received an
overpayment of $57.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 8 of the 119 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $68,805.

Incorrect Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” The Manual, chapter 1,
section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be
completed accurately ….”

For 3 out of 119 sampled claims, the Hospital submitted the claim to Medicare with incorrectly
coded DRG codes. Each of the three claims had an incorrect diagnosis code, which resulted in
the incorrect DRG codes. The Hospital attributed the incorrect coding to human error. As a
result of these errors, the Hospital received overpayments totaling $39,655.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations (42 CFR § 412.89) require reductions in the IPPS payments for the
replacement of an implanted device if (1) the device is replaced without cost to the provider,
(2) the provider receives full credit for the cost of a device, or (3) the provider receives a credit
equal to 50 percent or more of the cost of the device. The Manual, chapter 3, section 100.8,
states that to correctly bill for a replacement device that was provided with a credit, the hospital
must code its Medicare claims with a combination of condition code 49 or 50, along with value
code “FD.”

For 3 out of 119 sampled claims, the Hospital received a reportable medical device credit from a
manufacturer for a replaced device but did not adjust its inpatient claims with the appropriate
condition and value codes to reduce payment as required. These overpayments occurred because
the Hospital did not have adequate controls to report the appropriate condition and value codes to




                                                  7
accurately reflect credits it had received from manufacturers. As a result of these errors, the
Hospital received overpayments totaling $18,831.

Lack of Physician Orders

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “… are not reasonable and necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the
Act states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….” Federal regulations (42 CFR
§ 424.13(a)) state that “Medicare Part A pays for inpatient hospital services … only if a
physician certifies and recertifies,” among other things, the reasons for continued
hospitalization.

For 2 out of 119 sampled claims, the Hospital incorrectly billed Medicare Part A for inpatient
short stays (that is, Hospital admissions in which the length of stay was 1 day or less) that did not
have valid physician orders to admit the beneficiaries for inpatient care. The Hospital attributed
this issue to a miscommunication between nursing staff and patient financial services staff. As a
result of these errors, the Hospital received overpayments totaling $10,319.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $256,789, consisting of $187,984 in overpayments for
       the 66 incorrectly billed outpatient claims and $68,805 in overpayments for the 8
       incorrectly billed inpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations and stated that it had taken steps to strengthen controls to ensure full
compliance with Medicare billing requirements.

The Hospital’s comments are included in their entirety as Appendix B.




                                                 8
APPENDIXES
                              APPENDIX A: RESULTS OF REVIEW BY RISK AREA



                                                                                                        Claims
                                                                                     Value of            With            Value of
                                                                 Selected            Selected           Over-             Over-
                      Risk Area                                  Claims              Claims            payments          payments
Outpatient

Lupron                                                                     61            $214,332                61            $161,740
Claims paid in Excess of $25,000                                           31            $925,688                 1             $19,988
Manufacturer Credits for Replaced Medical
Devices                                                                      3            $33,512                 2              $5,816
Claims Billed for Doxorubicin Hydrochloride                                10            $120,572                 1               $383
Claims Billed With Modifier 25                                             25            $157,225                 1                $57
Claims Billed With Modifier 74                                               2              $3,514                0                 $0
 Outpatient Totals                                                        132         $1,454,843                 66            $187,984


Inpatient
Claims Billed With High Severity Level
Diagnosis-Related Group Codes                                              49         $1,471,705                  2             $22,656
Manufacturer Credits for Replaced Medical
Devices                                                                      4            $90,293                 3             $18,831
Claims Paid in Excess of Charges                                           13            $427,355                 1             $16,999
Short Stays                                                                34            $185,758                 2             $10,319
Claims Paid in Excess of $150,000                                            9        $1,995,572                  0                 $0
Hospital Acquired Conditions and Present on
Admission Indicator Reporting                                              10            $710,458                 0                 $0
 Inpatient Totals                                                         119         $4,881,141                  8             $68,805


 Outpatient and Inpatient Totals                                          251         $6,335,984                 74            $256,789
         Notice: The table above illustrates the results of our review by risk area. In it, we have organized outpatient and
         inpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
         billing errors we found at the Hospital. Because we have organized the information differently, the information in
         the individual risk areas in this table does not match precisely with this report’s findings.
                                                                                                  Page 1 of 2


                     APPENDIX B: AUDITEE COMMENTS



    ~
~<5IQNAL HEALTH
P.G ..>Box 6000   Rapid City, SO 57709




April4, 2013


Mr. Patrick J. Cogley
Regional Inspector General
Office of Audit Services, Region VII
601 East 121h Street, Room 0429
Kansas City, MO 64106

Re: Report Number: A-07-12-05033

Dear Mr. Cogley,

This Jetter provides comments on behalf of Rapid City Regional Hospital to the draft report
entitled "Medicare Compliance Review of Rapid City Regional Hospital for Calendar Years
20 I 0 and 20 II". Rapid City Regional Hospital appreciates the opportunity to respond to the
Draft Report.

As noted in the Draft Report, the Office ofinspector General (the "OIG") reviewed $6,335,983
in Medicare payments to the Hospital for 132 outpatient and 119 inpatient claims. The Hospital
concurs with the OIG's findings that 177 of the 251 outpatient and inpatient claims fully
complied with Medicare billing and 74 claims did not comply with Medicare billing. The
Hospital concurs with the OIG finding that the billing errors resulted in overpayments totaling
$256,789 for CYs 2010 and 2011. The OIG's recommendations and the corrective action taken
are set forth as follows:

"The OIG recommends that the Hospital refund to the Medicare contractor $256, 789, consisting
of$187,984 in overpayments for the 66 incorrectly billed outpatient claims and $68,805 in
overpayments for the 8 incorrectly billed inpatient claims. "

        Rapid City Regional Hospital concurs with this recommendation and refunded the total
        amount of $256,789 by submitting corrected claims to Noridian.

"The OJG recommends that the Hospital strengthen controls to ensure full compliance with the
Medicare requirements. "

        Rapid City Regional Hospital concurs with this recommendation and implemented the
        follow corrective actions:
                                                                                                    Page 2 of 2





               1. The Hospital corrected the phannacy dictionary and the Chargemaster system
                  to use the correct HCPS code J9217 while the OIG was on site. The $161,470
                  overpayment was refunded.
               2. A baclofen drug claim was submitted with an incorrect revenue code. The
                  Hospital determined this issue to be an isolated incident caused by a manual
                  clerical error. Internal education was provided and the $19,988 overpayment
                  was refunded.
               3. The Hospital incorrectly submitted two outpatient and three inpatient claims
                  for replaced medical devices without the required FB modifier to indicate no­
                  cost and reduced cost devices under OPPS. The Hospital implemented
                  adequate controls to report the appropriate modifier and reduced charges to
                  accurately reflect credit had received from manufacturers. The $5,816
                  outpatient and $18,83 1 inpatient overpayments were refunded.
               4. A single claim for Doxorubicin Hydrochloride was submitted for eight units
                  rather than seven units. The Hospital determined this issue to be an isolated
                  incident caused by a clerical error. Internal education was provided and the
                  $383 overpayment was refunded.
               5. A single claim for a postoperative dressing change was erroneously coded.
                  The Hospital determined this issue to be an error in coding by nursing staff.
                  Internal education was provided and the $57 overpayment was refunded.
               6. Three inpatient claims where submitted with incorrect DRG codes. The
                  Hospital attributed the incorrect coding to human error. Internal education was
                  provided and the $39,655 overpayment was refunded.
               7. Two claims were submitted incorrectly as inpatient Medicare Part A short stay
                  claims without valid physician orders to admit the patients for inpatient care.
                  The Hospital attributed the issue to a miscommunication between nursing staff
                  and patient financial services staff. Internal education was provided and the
                  $10,3 19 overpayment was refunded.

Rapid City Regional Hospital reviewed the claims errors and implemented changes, various
processes and education to prevent these errors from occurring in the future. We will continue to
educate our staff and conduct monitoring and auditing activities to strengthen controls and
ensure full compliance with Medicare billing requirements.

Please contact me if you need any additional information.




Michael G. Diedrich
Interim Vice President of Corporate Responsibility




                                                2
